Report No. D-2008-118         August 25, 2008




  Host Nation Support of U.S. Forces in Korea
Additional Information and Copies
42B




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
43B




To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




4B




Acronyms and Abbreviations
FED                           U.S. Army Corps of Engineers, Far East District
FMC                           Financial Management Center
HNS                           Host Nation Support
KN                            Korean National
LCS                           Labor Cost Sharing
NAF                           Nonappropriated Fund
ROK                           Republic of Korea
U.S.C.                        United States Code
USFK                          U.S. Forces Korea
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                  August 25,2008

MEM~ORANDUMFOR          UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF~
                           FINANCIAL OFFICER
                        COMMANDER, U.S. FORCES KOREA
                        COMMANDER, U.S. AIR FORCES KOREA
                        ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                           MANAGEMENT AND COMPTROLLER)
                        NAVAL INSPECTOR GENERAL
                        AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                        DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Host Nation Support of U.S. Forces in Korea
         (Report No. D-2008-118)

Weare providing this report for your review and comment. We performed the audit in response to
a request by the Commander, U.S. Forces Korea. We considered management comments on a
draft of the report in preparing the final report.

Comments to the recommendations on a draft of this report conformed to the requirements of DoD
Directive 7650.3. However, the Chief of Staff, U.S. Forces Korea, responding for the
Commander, U.S. Forces Korea, provided comments on finding B that required an additional
recommendation. Therefore, we request comments on Recommendation B.2. from the Under
Secretary of Defense (Comptroller)/ChiefFinancial Officer, the Director, Defense Finance and
Accounting Service and the Commander, U.S. Forces Korea by September 25,2008.

Please provide comments on the new recommendation that conform to the requirements of DoD
Directive 7650.3. Ifpossible, send management comments in electronic format (Adobe Acrobat
file ollly) to A·udJ&OO@p,(lodig.lnil. Copies of the management comments must have the actual
signature of the authorizing official for your organization. We cannot accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments electronically, you
must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We alJpreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8863 (DSN 664-8863) or Mr. Gordon Uscier at (703) 604-9194 (DSN 664-9194). If you
desire, we will provide a formal briefing on the results.



                                           rW~x~>IJA~VFlJ'
                                             Donald A. B, omer
                                             Deputy Director
                                             Joint and Overseas Operations
Report No. D-2008-118 (Project No. D2007-D000LA-0251.000)                                August 25, 2008


                Results in Brief: Host Nation Support of
                U.S. Forces in Korea

What We Did
0B                                                        What We Recommended
                                                          2B




At the request of the Commander, U.S. Forces              To ensure burdensharing funds are used as
Korea, we evaluated the controls over the Host            intended we recommended the following:
Nation Support that U.S. Forces Korea receives                • Stop providing burdensharing funds to
from the Republic of Korea. We focused on the                    nonappropriated fund instrumentalities,
cash and in-kind contributions outlined in the                   recoup the burdensharing funds given to
Special Measures Agreement between the                           the Dragon Hill Lodge, and redistribute
United States and the Republic of Korea.                         those funds to appropriated entities at
Specifically, we evaluated the controls over the                 U.S. Forces Korea.
Labor Cost Sharing and Host Nation Funded                     • Establish clear guidance that simplifies
Construction programs.                                           the Labor Cost Sharing cashflow process
                                                                 by eliminating unnecessary steps.
What We Found
1B                                                            • Improve the internal control program as
Controls over the programs we evaluated were                     it relates to the Korean National pay
generally adequate and no material internal                      process by developing a written
control weaknesses were identified. However,                     description of the controls in place and
we identified three areas of concern:                            completing documented reviews to
                                                                 provide the basis for annual assurance
     •   Burdensharing funds are not always                      statements.
         being used as intended. Specifically,
         U.S. Forces Korea officials are using            Client Comments and Our
                                                          3B




         burdensharing funds to pay                       Response
         nonappropriated fund labor costs. Using
                                                          The Acting Deputy Chief Financial Officer,
         burdensharing funds for this purpose
                                                          responding for the Under Secretary of Defense
         does not result in a reduction of costs to
                                                          (Comptroller)/Chief Financial Officer; Chief of
         the United States for the stationing of
                                                          Staff, U.S. Forces Korea, responding for the
         forces in Korea.
                                                          Commander, U.S. Forces Korea; and
                                                          Commander, 7th Air Force, responding for the
     •   The Labor Cost Sharing cashflow                  Commander, 51st Comptroller Squadron,
         process is obscured by unnecessary               concurred with all recommendations. However,
         steps. As a result, oversight officials          the Chief of Staff, U.S. Forces Korea provided
         cannot readily ensure that Labor Cost            comments on finding B that required an
         Sharing funds are used as intended.              additional recommendation. We request
                                                          additional comments from the Under Secretary
     •   The monitoring of the internal controls          of Defense (Comptroller)/Chief Financial
         for the Korean National pay process at           Officer, the Director, Defense Finance and
         the 51st Comptroller Squadron, U.S. Air          Accounting Service, and Commander, U.S.
         Forces Korea is inadequate. As a result,         Forces Korea by September 25, 2008. Please
         officials cannot be assured that controls        see the recommendations table on the back of
         are in place and working effectively.            this page.


                                                      i
Report No. D-2008-118 (Project No. D2007-D000LA-0251.000)                August 25, 2008

Recommendations Table
4B




Client                          Recommendations      No Additional Comments
                                Requiring Comment    Required
Under Secretary of Defense      B.2.a., B.2.b.       A.1., A.2.
(Comptroller)/Chief Financial
Officer

Commander, U.S. Forces Korea    B.2.a., B.2.b.       B.1.a., B.1.b., and B.1.c.

Commander, 51st Comptroller                          C.1., C.2.
Squadron, U.S. Air Forces
Korea

Director, Defense Finance and   B.2.a., B.2.b.
Accounting Service

Please provide comments by September 25, 2008.




                                             ii
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                          1
       Background                                                          1

Finding A. Use of Burdensharing Funds                                       5

       Recommendations, Client Comments, and Our Response                   9

Finding B. Labor Cost Sharing Cashflow Process                             11

       Recommendations, Client Comments, and Our Response                  16

Finding C. Monitoring Air Force Controls Over the Pay Process for Korean
Labor                                                                      19

       Recommendations, Client Comments, and Our Response                  20

Appendices

       A. Scope and Methodology                                            21
             Review of Internal Controls                                   21
             Prior Coverage                                                22
       B. Quick-Reaction Report                                            23
       C. U.S. Forces Korea Response to Quick-Reaction Report              27
       D. Controls Over the Labor Cost Sharing Program                     29
       E. Controls Over Host Nation Funded Construction                    31

Client Comments

       Under Secretary of Defense (Comptroller)/Chief Financial Officer    33
       U.S. Forces Korea                                                   35
       7th Air Force, U.S. Air Forces Korea                                39
Introduction
Objectives
5B




The Commander, U.S. Forces Korea (USFK), asked the DoD Office of Inspector General
to evaluate the controls over Host Nation Support (HNS) in Korea. The objective of this
audit was to evaluate the controls over HNS of U.S. Forces in Korea during armistice and
hostilities. However, because of time constraints, we limited the scope of the audit to
include only HNS during armistice. See Appendix A for a discussion of the scope and
methodology and prior coverage related to the objective.

Background
6B




Burdensharing and Cost Sharing
37B




The United States expects its allies to share in the responsibilities of supporting the
common defense. Public Law 104-201, “National Defense Authorization Act for
FY 1997,” September 23, 1996, section 1084, states that U.S. allies should provide
burdensharing support in the following four areas: defense spending, multinational
military activity, cost sharing, and foreign assistance. Figure 1 provides an overview of
the use of the cost sharing contributions provided to USFK by the Republic of Korea
(ROK).


                                                  Burdensharing

                 Defense               Multinational                Cost                      Foreign
                Spending              Military Activity            Sharing                   Assistance


                        Direct                                                   Indirect


                Rents                        Labor                         Revenues              Foregone
                                                                           and Taxes               Rent

           Korean Military                    Logistics
             Augmentee
               Labor
                                          Republic of Korea                         Special Measures
              Relocation
                                         Funded Construction                           Agreement
             Construction
                                           Combined Defense
                                          Improvement Projects

                    Republic of Korea Funded Construction + Combined Defense Improvement Projects =
                                           “Host Nation Funded Construction”

        Source: Derived from USFK Regulation 415-1

        Figure 1. USFK Cost Sharing Overview




                                                          1
This audit focused on the controls and use of cash and in-kind 1 contributions provided by
                                                                           F   F




the ROK to USFK as outlined in the Special Measures Agreement.

Cost sharing includes cash and in-kind contributions provided by a host nation in support
of U.S. Forces stationed in the contributing country. Section 2350j, title 10, United
States Code (10 U.S.C. 2350j) authorizes the Secretary of Defense to accept contributions
from any country or regional organization for the following DoD expenditures:
compensation for local national employees, military construction, and supplies and
services.

Special Measures Agreement and Implementation Arrangement
38B




The Special Measures Agreement states that the ROK is to bear a part of the costs
associated with stationing U.S. Forces in Korea. Those costs include Labor Cost Sharing
(LCS); Host Nation Funded Construction, which is a combination of ROK Funded
Construction and Combined Defense Improvement Projects; and Logistics Cost Sharing.

The agreement is renegotiated every 2 years, and the current agreement covers 2007 and
2008. The ROK contributed ₩725.5 billion 2 in 2007 and ₩741.5 billion in 2008. The
                                                     F   F




2008 amount was determined by increasing the 2007 contribution by the December 2006
consumer price index of 2.2 percent.

The 2007-2008 “Implementation Arrangement,” April 4, 2007, provides specific
guidance on the allocation and use of the contributed funds. The arrangement states that,
“after consultation with the ROK Ministry of National Defense, USFK shall provide the
Ministry of National Defense with the allocations for each cost sharing category.” The
allocations in 2007 included ₩295.4 billion for LCS, ₩297.5 billion for Host Nation
Funded Construction, and ₩132.5 billion for Logistics Cost Sharing. The
Implementation Arrangement provides guidance for the use of these funds as follows.

      •   Contributions for LCS are to be paid in cash. Contributions provided by the ROK are
          to be used solely to pay the salaries and benefits for Korean National (KN)
          employees. The total amount of the contributions from the ROK are to be no more
          than 71 percent of the labor costs for the USFK Korean workforce. The 2007
          contribution was approximately 66 percent of the total appropriated Korean labor
          cost.

      •   The Logistics Cost Sharing program is an in-kind program. USFK officials order
          supplies and services from contracts negotiated by USFK and awarded by the ROK
          Ministry of National Defense and forward all certified invoices to the Ministry of
          National Defense for payment. We did not review the Logistics Cost Sharing




1
  In-kind contributions are provided by the host nation but are not paid in cash. Contributions include
equipment, supplies, or services.
2
  The ROK makes its contributions in Korean currency, Won (₩).


                                                     2
     program because the Army Audit Agency reviewed the program, as reported in
     A-2005-0093-FFP, “Logistics Cost Sharing Program,” January 12, 2005.

•    The Host Nation Funded Construction program includes Combined Defense
     Improvement Projects and ROK Funded Construction. The Combined Defense
     Improvement Project program is primarily in-kind, meaning that the ROK contracts
     and pays for the construction of facilities for use by USFK. The ROK Funded
     Construction program is both a cash and in-kind program, where in-kind constitutes
7B
     10 percent or more of the contributions provided by the ROK.




                                            3
4
A. Use of Burdensharing Funds
Burdensharing funds are not always being used as intended. Specifically, USFK officials
used ₩1 billion (approximately $1 million) of the burdensharing funds contributed by the
ROK to pay nonappropriated fund (NAF) labor costs. Using burdensharing funds to pay
NAF labor costs does not result in a reduction of costs to the United States for the
stationing of forces in Korea. USFK officials should stop distributing burdensharing
funds to pay for NAF labor costs and recoup funds already distributed to NAF
instrumentalities. 3   F   F




Timeline of Actions to Date
8B




On January 19, 2007, the USFK, Judge Advocate General issued an opinion on the “Use
of Burden Sharing Contributions for Dragon Hill Lodge Labor Costs.” The opinion
stated that although the use of burdensharing funds for NAF costs was not expressly
prohibited, such a change would require negotiation with the ROK. The opinion also
stated that the intent of Congress was to use burdensharing funds to offset appropriations,
and there is no provision that expressly authorizes the use of burdensharing funds to
defray NAF costs. The opinion noted that using burdensharing funds to pay NAF costs
would reduce the amount of funds available for other uses as the ROK has capped its
total contributions. See Appendix B for the USFK, Judge Advocate General’s opinion.

On February 1, 2008, we issued a Quick-Reaction Report on the “Use of Republic of
Korea Burdensharing Contributions for Labor Costs at the Dragon Hill Lodge” and
recommended that USFK officials not use burdensharing funds to pay for NAF costs.
See Appendix B for the Quick-Reaction Report.

On March 31, 2008, USFK officials responded to our report and nonconcurred with our
recommendation. See Appendix C for the official response. The response included the
following three points.

       •    The Commander, USFK, did not agree with the USFK, Judge Advocate General’s
            opinion that Congress intends for burdensharing funds to be used to offset
            appropriated fund costs.

       •    The 2007-2008 Implementation Arrangement authorizes the use of host nation
            funds to pay salaries and benefits of KN employees and does not specifically
            prohibit NAF KN employees.

       •    A restriction on the use of appropriated funds to offset self-sustaining entities
            does not clearly apply to the use of burdensharing funds.




3
     A NAF instrumentality is a DoD organizational and fiscal entity supported in whole or in part by NAFs.


                                                       5
On April 14, 2008, USFK officials provided approximately $1 million in burdensharing
funds to pay NAF KN labor costs at the Dragon Hill Lodge.

Burdensharing Guidance
9B




Burdensharing funds are governed by 10 U.S.C. 2350j, which authorizes the acceptance
of cash contributions to pay costs for local national employees of the DoD. Public
Law 104-201, “National Defense Authorization Act for FY 1997,” September 23, 1996,
section 1084, states that allies need to increase burdensharing contributions and that those
funds are to be applied toward nonpersonnel stationing costs 4 incurred by the
                                                                            F   F




U.S. Government for stationing U.S. military personnel in their nation. DoD Financial
Management Regulation, Volume 12, Chapter 24, “Burdensharing and Overseas
Relocation Contributions by Foreign Allies,” December 2001, re-establishes
burdensharing policy and assigns the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer as the departmental point of contact for all matters
involving the acceptance, receipt, administration, and distribution of burdensharing
funds.

In addition, the Office of Management and Budget Circular No. A-123, “Management’s
Responsibility for Internal Control,” December 21, 2004, states:

              Management has a fundamental responsibility to develop and maintain effective
              internal control. The proper stewardship of Federal resources is an essential
              responsibility of agency managers and staff. Federal employees must ensure
              that Federal programs operate and Federal resources are used efficiently and
              effectively to achieve desired objectives. Programs must operate and resources
              must be used consistent with agency missions, in compliance with laws and
              regulations, and with minimal potential for waste, fraud, and mismanagement.

Further, USFK Regulation 37-2, “Republic of Korea Labor Cost Sharing Program,”
April 29, 2004, discusses the proper use of burdensharing funds from the ROK applied to
the LCS program. The regulation places restrictions on the types of organizations that
may receive burdensharing funds for labor, and specifically excludes NAF entities from
the LCS program.

Applying Burdensharing Funds to NAF Costs
10B




On April 14, 2008, USFK officials diverted approximately $1 million from offsetting
appropriated fund costs to pay for NAF KN labor costs at the Dragon Hill Lodge. The
Chief of Staff, USFK, in response to our Quick-Reaction Report, stated that restrictions
on the use of appropriated funds for NAF expenditures do not clearly apply to
burdensharing funds. However, by applying the burdensharing funds to NAF costs,




4
       Nonpersonnel stationing costs are expenses incurred while stationing U.S. Forces in the host nation,
      excluding military personnel pay and allowances. They are used to compute the percentage of the ROK
      cost sharing contribution, and consist of Operations and Maintenance, Family Housing Operations, and
      Military Construction.


                                                         6
USFK must then use appropriated funds to pay costs that would normally be offset by the
burdensharing funds.

There are circumstances where it would be appropriate to use burdensharing or
appropriated funds to pay NAF costs; for example, if special security conditions exist that
adversely affected the ability of the instrumentality to generate revenues. However,
USFK officials did not provide any indication that those circumstances exist at the
Dragon Hill Lodge. The Dragon Hill Lodge is a Category C, NAF instrumentality 5 and                 F   F




is self-sustaining, as evidenced by its FYs 2005 through 2007 income, shown in Table 1.

                              Table 1. Dragon Hill Lodge Income

                   Fiscal       Total Revenue             Net Income Before
                   Year           (millions)             Depreciation (millions)
                   2007             $45.9                        $21.9
                   2006              43.8                          19.7
                   2005              40.7                          16.5
                   Total           $130.4                        $58.1

Intent of Burdensharing Funds
1B




Congressional Intent
39B




USFK officials are not using burdensharing contributions as intended by Congress.
USFK diverted some ROK contributions to pay for NAF costs. Congress intended that
burdensharing funds received from allies be used for the payment of nonpersonnel
stationing costs and in lieu of appropriated funds. According to the USFK, Judge
Advocate General’s opinion:

        These contributions have traditionally been viewed as off sets or replacements
        for the appropriations from Congress necessary to maintain forces overseas.
        The original version of the statute authorizing the acceptance of contributions
        (Sec. 1045 of the National Defense Authorization Act for Fiscal Years 1992 and
        1993) states that burden sharing funds shall be credited to appropriations of the
        DoD and merged with the appropriations to which they are credited. While the
        statute has been amended several times and this early language is missing, we
        have found no indication that this original intent for the use of burden sharing
        funds has changed.

Although the Commander, USFK did not agree with the USFK, Judge Advocate
General’s opinion, he should not divert burdensharing funds to pay NAF costs unless
there is a compelling reason to divert the funds and the ROK agrees. In addition, he




5
 A Category C NAF instrumentality has the highest capability to generate revenue and therefore is
expected to be self-sustaining.


                                                    7
should ensure proper stewardship of these limited funds by using them to offset
nonpersonnel stationing costs because it ultimately results in a reduced burden on the
U.S. taxpayer.

USFK Understanding of Intent
40B




USFK officials have demonstrated their understanding of the intended use of
burdensharing funds to offset nonpersonnel stationing costs, as shown by the following.

      •   USFK Regulation 37-2 states that there should be no net gain to the unit’s budget
          because the burdensharing funds should offset the KN pay budget appropriated by
          Congress. As such, the burdensharing funds should reduce the unit’s appropriated
          budget requirements and subsequently reduce the U.S. Government’s overall
          budget requirements.

      •   USFK provides the ROK an annual LCS report showing the ROK’s annual
          contribution as a percentage of the total KN labor costs. The total USFK KN
          labor costs do not include NAF employees.

      •   On April 24, 2007, the Commander, USFK, testified before the Senate Armed
          Services Committee and stated that the 2007 contributions from the ROK
          represented only 41 percent of nonpersonnel stationing costs, which was short of
          the equitable cost sharing goal. The Commander further stated that as a result of
          burdensharing shortfalls, USFK is forced to stretch limited funding.

      •   On March 11, 2008, the Commander, USFK, again testified before the Senate
          Armed Services Committee and stated that the ROK “pays about a third of our
          operations and maintenance costs. We call it bureaucratically nonpersonnel
          stationing costs.”

Conclusion
12B




Burdensharing funds should be used to offset nonpersonnel stationing costs. However,
USFK officials diverted burdensharing funds to pay NAF costs at the Dragon Hill Lodge,
which had a net profit of $22 million in 2007. Applying burdensharing funds to NAF
costs does not meet the intent of Congress or USFK, because it does not reduce
nonpersonnel stationing costs or the burden on the U.S. taxpayer. In addition, applying
limited burdensharing funds to an already profitable organization is not an efficient or
effective use of approximately $1 million of government funds.




                                              8
Recommendations, Client Comments, and Our
13B




Response
A. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       1. Require U.S. Forces Korea officials to stop using Republic of Korea
          burdensharing funds to pay nonappropriated fund costs without
          justification and without the consent of the Republic of Korea.

       2. Recoup the burdensharing funds already distributed to the Dragon Hill
          Lodge, and redistribute them to pay the U.S. Forces Korea appropriated
          fund Korean National labor costs.

Under Secretary of Defense (Comptroller)/Chief Financial Officer Comments. The
Acting Deputy Chief Financial Officer, responding for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer (the Under Secretary), concurred with
recommendations A.1. and A.2. The Acting Deputy Chief Financial Officer stated that a
memorandum was in coordination for the Under Secretary’s signature directing USFK to
terminate the use of burdensharing funds to offset KN NAF personnel costs and to recoup
the burdensharing funds already distributed to the Dragon Hill Lodge and use them to
offset appropriated fund costs. The estimated completion date for this memorandum was
July 30, 2008; however, through follow-up efforts, we determined that the Under
Secretary issued this memorandum to the Commander, USFK on July 7, 2008.

Our Response. The comments were fully responsive, and no additional comments are
required.




                                          9
10
B. Labor Cost Sharing Cashflow Process
USFK officials have established and implemented controls to process, document, and
account for the use of LCS funds. Although we did not find any material control
weaknesses, we did identify some unnecessary steps that obscure the LCS cashflow
process. As a result, oversight officials cannot readily ensure that LCS funds are used as
intended. USFK officials should improve the LCS cashflow process by:

      •   depositing all LCS funds contributed by the ROK into one account,

      •   disbursing all of the contributed funds in Won (preferably by electronic funds
          transfer) from the specified account, and

      •   maintaining all of the contributed funds in the specified account until fully
          disbursed.

Overview of the LCS Cashflow Process
14B




The 175th Financial Management Center (FMC) is responsible for coordinating the
receipt and distribution of LCS funds for USFK. The 175th FMC receives these funds
from the ROK annually in three payments (April, June, and August) and distributes them
to participating organizations upon receipt. In 2007, there were 27 organizations that
received LCS funds. The method of distribution depends on how the 175th FMC officials
categorize the organizations. The categories and methods of distribution for the 2007
payments were as follows.

      •   Organizations that managed their own pay centers – The 175th FMC officials
          distributed cash payments to two pay centers, U.S. Air Forces Korea and
          U.S. Naval Forces Korea. The Air Force and Navy then paid their
          KN employees.

      •   Organizations that managed their own payroll accounts – The 175th FMC officials
          distributed cash payments or vouchers to seven organizations (see Table 2 on
          page 12, organizations 3-9). These organizations credited their own
          appropriations upon receipt of funds; however, the 175th FMC paid their
          KN employees and charged the appropriate accounts for each payment.

      •   Organizations that had their payroll accounts managed by the 175th FMC – The
          175th FMC officials credited the other 18 organizations’ appropriations upon
          receipt of LCS funds and charged the appropriate accounts when making payroll
          payments.

Officials from the 175th FMC receive and distribute LCS contributions from the ROK
using two Won-based bank accounts: the Restricted Account and the Entity Account.
The Restricted Account is only used to maintain and disburse LCS contributions from the
ROK. The Entity Account is primarily used to maintain funds for other USFK


                                               11
obligations that require payments in Won, such as Korean vendors and contractors;
however, it is also used to maintain and disburse some LCS contributions from the ROK.

Most of the Won maintained in the Entity Account is converted from dollars, which
requires the use of the Foreign Currency Fluctuation Account (Flux Account). 6             F   F




Therefore, when any disbursement is made from the Entity Account, the difference
between the budget rate 7 and the current exchange rate is charged directly to the Flux
                           F   F




Account.

Conversely, all the Won maintained in the Restricted Account is contributed directly
from the ROK and not converted from dollars; therefore, the Flux Account is not needed.
Figure 2 describes the LCS cashflow process, which will be explained in the paragraphs
that follow.




Figure 2. LCS Cashflow Process (Using 2007 Amounts)




6
  The Foreign Currency Fluctuation Account is used to alleviate the adverse effect of fluctuations in
exchange rates on DoD programs funded by Operation and Maintenance appropriations.
7
  The budget rate is a foreign currency exchange rate provided by the DoD Comptroller to DoD
Components for preparing budget submissions during budget formulation and for recording obligations
during budget execution.


                                                   12
Depositing Contributions From the ROK
15B




Officials from the 175th FMC unnecessarily deposit LCS contributions from the ROK
into two accounts. For 2007, as shown in Figure 2, they deposited approximately
₩248 billion into the Restricted Account over three payments and approximately
₩47 billion into the Entity Account over three payments. The LCS deposits into the
Entity Account represent the LCS portions for the additional two pay centers and the
seven organizations that manage their own accounts.

      Depositing contributions from the ROK into the Entity Account is confusing and
      unnecessary. Additionally, commingling these funds with funds used to pay other
      obligations can give the appearance that LCS contributions from the ROK are not being
      used as intended. Simplifying the process by depositing all LCS contributions from the
      ROK into the Restricted Account would more clearly show that funds are used as
      intended.

Disbursing Contributions From the ROK
16B




Officials from the 175th FMC unnecessarily paid some organizations their LCS portions
in dollars. The payments in dollars are shown in Table 2 and were equivalent to the
₩47 billion deposited into the Entity Account.

            Table 2. Organizations That Received Their LCS Portions in U.S. Dollars
                                                          2007 LCS Portions
                                                Dollar Equivalent Won Deposited
                                                  Transferred          Into Entity          Method
                    Organization                    (millions)          (billions)        of Transfer
       1. U.S. Air Forces Korea*                     $35.23             ₩32.67         Treasury checks
       2. U.S. Naval Forces Korea*                     4.63               4.29         Treasury checks
       3. DoD Dependent Schools                        1.02               0.95         IPAC**
       4. Defense Commissary Agency                    7.76               7.20         IPAC**
       5. Defense Contract Audit Agency                0.04               0.03         Treasury checks
       6. Criminal Investigation Division              0.84               0.78         Treasury checks
       7. Defense Intelligence Agency                  0.44               0.41         Treasury checks
       8. Defense Logistics Agency                     0.33               0.30         Vouchers
       9. Special U.S. Liaison Activity Korea          0.58               0.54         Vouchers
        Total                                        $50.87            ₩47.17
       * Manage own pay centers
       ** Intragovernmental Payment and Collection System, an automated intragovernmental system operated
           by the Department of the Treasury and used for billing services and supplies.

Officials from the 175th FMC transferred dollars to the nine organizations in Table 2
because the organizations manage either their own pay centers or payroll accounts.
However, disbursing contributions from the ROK in dollars to any of the organizations is
complicated and unnecessary. For example, the pay centers that receive Treasury checks
must convert the U.S. dollars to Won to pay their KN employees. Additionally, the 175th


                                                       13
FMC officials make payroll disbursements for the other seven organizations and charge
the appropriate organizational accounting code; thus, there is no need for an actual
transfer of funds. To simplify the process, 175th FMC officials should disburse the LCS
portions to other pay centers in Won via electronic funds transfer from the Restricted
Account and credit the accounts of organizations for which the 175th FMC is the pay
center.

Maintaining Contributions From the ROK
17B




Officials from the 175th FMC unnecessarily transfer LCS funds from the Restricted
Account to the Entity Account at the close of the fiscal year. As shown in Figure 2, in
September 2007, the amount transferred was approximately ₩93.79 billion. Officials
from the 175th FMC stated that they zero out the Restricted Account because the budget
rate changes every fiscal year. However, the location of the cash does not need to affect
how they account for disbursements. Moving these funds is not only unnecessary but
also commingles LCS funds with funds used to pay other obligations (such as Korean
vendors and contractors) and may give the appearance that funds contributed by the ROK
are not being used as intended.

Additionally, the transfer causes the 175th FMC to pay into the Flux Account, which is
another unnecessary step. As previously stated, the 175th FMC uses the Flux Account
when making payments from the Entity Account, but does not use it for payments from
the Restricted Account. Therefore, 175th FMC officials make a payment to the Flux
Account to compensate for the use of it with the transferred funds contributed by the
ROK. As shown in Figure 2, in 2007, the amount paid to the Flux Account was
approximately $19.47 million, which equaled the difference between the budget and
current exchange rate of the funds transferred to the Entity Account. The 175th FMC
could avoid this unnecessary step by maintaining ROK contributed funds in the
Restricted Account until fully disbursed.

Conclusion
18B




Unnecessary steps obscure the LCS cashflow process. Eliminating these unnecessary
steps will better enable oversight officials to ensure that LCS funds are being used as
intended. Figure 3 shows the recommended, streamlined LCS process to ensure
accountability over the use of these funds. As the figure shows, all LCS contributions
from the ROK are to be deposited into the Restricted Account, where they remain until
disbursed for payroll or to other pay centers. Additionally, the Entity Account is only to
be used to pay the U.S. portion of KN labor.




                                            14
Figure 3. Recommended LCS Cashflow Process

Actions to Date
19B




USFK Resource Management officials have been working with the 175th FMC to
simplify the process. For the first payment of 2008, 175th FMC officials disbursed funds
to other pay centers via electronic funds transfer instead of the previous method, which
was a Treasury check.

Client Comments on the Finding and Our Response
19




In the USFK response to the draft report, the Chief of Staff, USFK stated that USFK had
instituted a series of process changes and improvements, to include issuing interim
guidance to all three servicing KN payroll activities in USFK (175th FMC, 7th Air Force,
and Naval Forces Korea) to meet the intent of the recommendations. The Chief of Staff
also stated that USFK would continue to work with all stakeholders to fully implement a
long-term practical solution.

The Chief of Staff noted that a “one size fits all” solution to these process changes was
not practical because of differences in Defense Finance and Accounting Service and
Service systems, and varying accounting and disbursing practices. As a result, he
requested that we facilitate policy reviews with officials at the DoD Comptroller and
Defense Finance and Accounting Service to address differences in accounting and
disbursing procedures for LCS funds, including:

      •   establishing consistent USFK guidance on the exchange rate to use when
          collecting and maintaining ROK contributed funds;
      •   using the Foreign Currency Fluctuation Account for funds contributed in Korean
          currency;



                                            15
         •   updating software of disbursing systems to avoid use of the Foreign Currency
             Fluctuation Account;
         •   obtaining an exception to DoD policy for how much cash on-hand a disbursing
             officer can have; and
         •   obtaining clear guidance from the Defense Finance and Accounting Service for
             how funds should be posted to the end user’s account.

We agree that officials at the DoD Comptroller and Defense Finance and Accounting
Service should coordinate with USFK and the payroll activities (175th FMC, 7th Air
Force, and Naval Forces Korea) to address the stated concerns and, as such, we contacted
both offices to facilitate action.

As a result of the comments provided by the Chief of Staff, USFK, we added a
recommendation for the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, the Director, Defense Finance and Accounting Service and the Commander, U.S.
Forces Korea to conduct joint reviews of accounting and disbursing procedures to resolve
the policy and procedural issues (see Recommendation B.2.a.). Also, as a result of the
client comments, draft finding B and Recommendations 1., 2., and 3. have been
renumbered as finding B.1. and Recommendations a., b., and c.

Recommendations, Client Comments, and Our
20B




Response
B. We recommend that the Commander, U.S. Forces Korea, establish clear
guidance to eliminate unnecessary steps and simplify the Labor Cost Sharing
cashflow process.

             1. At a minimum, the Commander, U.S. Forces Korea, should require:

                 a. All Labor Cost Sharing funds contributed by the Republic of Korea to
                    be deposited into the Restricted Account.

                 b. All disbursements of Labor Cost Sharing funds contributed by the
                    Republic of Korea to be made in Won from the Restricted Account
                    (preferably by electronic funds transfer).

                 c. All Labor Cost Sharing funds contributed by the Republic of Korea to
                    remain in the Restricted Account until fully disbursed.

      Commander, U.S. Forces Korea Comments. The Chief of Staff, USFK, responding for
      the Commander, USFK, concurred with Recommendations B.1.a., B.1.b., and B.1.c. The
      Chief of Staff stated that for Recommendation B.1.a., all three servicing payroll activities
      were directed to establish a Won denominated restricted account to receive, hold, and
      disburse Won received from the ROK government solely for the purpose of KN payroll.
      The Chief of Staff also stated that USFK officials held discussions with the ROK
      Ministry of National Defense, and they agreed to deposit Won payments directly into
      three restricted accounts. For Recommendation B.1.b., the Chief of Staff stated that all


                                                  16
three servicing organizations have established restricted Won accounts, and the ROK
government is depositing Won directly into these accounts via electronic funds transfer.
For Recommendation B.1.c., the Chief of Staff agreed that all LCS funds contributed by
the ROK should be maintained in the restricted account until fully disbursed.

Our Response. The comments were fully responsive, and no additional comments are
required.

       2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
          Financial Officer, the Director, Defense Finance and Accounting Service,
          and the Commander, U.S. Forces Korea, conduct joint reviews of
          accounting and disbursing policy.

           a. At a minimum, the policy reviews should address the following topics:

              •   exchange rate for collecting and maintaining Republic of Korea
                  contributed funds,
              •   Foreign Currency Fluctuation Account usage,
              •   software updates to disbursing systems,
              •   disbursing officers’ cash on hand, and
              •   treatment of funds posted to end user’s account.

           b. Based on the results of the joint reviews conducted under
              Recommendation B.2.a., we recommend that the Under Secretary of
              Defense (Comptroller)/Chief Financial Officer, the Director, Defense
              Finance and Accounting Service, and the Commander, U.S. Forces
              Korea, develop and implement guidance as necessary.




                                           17
18
C. Monitoring Air Force Controls Over the
Pay Process for Korean Labor
The 51st Comptroller Squadron, U.S. Air Forces Korea needs to improve its internal
control program for the KN pay process. Although we found pay controls to be adequate,
officials need to strengthen their monitoring of the controls. Without an adequate
monitoring process, there is no assurance that controls are in place and working
effectively for the $45 million in payroll disbursed annually to the KN employees. The
51st Comptroller Squadron officials should develop a written description of the controls
in place and evaluate those controls annually.

Pay Overview of the KN Employees
21B




The 51st Comptroller Squadron is responsible for processing all pay costs for KN
employees of U.S. Air Forces Korea. The KN pay section, which is a part of the civilian
pay section at the 51st Comptroller Squadron, reviews timesheets and prepares
disbursement vouchers for payments to Koreans for salaries and other pay-related costs,
such as taxes and insurance. The KN pay section is unique to the 51st Comptroller
Squadron because it is responsible for processing and disbursing funds to pay the Korean
civilians they employ. For all other Air Force civilians, the Defense Finance and
Accounting Service processes their payroll.

According to DoD Instruction 5010.40, “Managers’ Internal Control Program
Procedures,” January 4, 2006, managers must identify, correct, and establish internal
controls and establish a program to review, assess, and report on the effectiveness of
internal controls. Each DoD Component is to develop an internal control program and
segment it into organizational assessable units. An assessable unit is defined as an
organizational subdivision that requires compliance with the internal control program.
Monitoring the effectiveness of internal controls should occur in the normal course of
business through periodic assessments.

Also, Air Force Instruction 65-201, “Managers’ Internal Control Program Procedures,”
October 12, 2006, states that managers are responsible for continuously monitoring their
internal controls. Managers must evaluate and develop a written description of their
internal controls so excessive controls can be eliminated and weak controls can be
improved. The evaluation is a documented review of an assessable unit to determine
whether internal controls exist and are effectively implemented.

Monitoring and Evaluating Controls
2B




The 51st Comptroller Squadron’s internal control program, as it relates to monitoring the
KN pay process, is inadequate. Air Force officials use a standard Air Force quality
assurance checklist to evaluate the civilian pay process. However, the checklist does not
identify or evaluate internal controls for the unique KN pay section at the
51st Comptroller Squadron. We reviewed those internal controls and found them to be
generally adequate; however, 51st Comptroller Squadron officials were unable to provide


                                           19
a documented review of the controls. The 51st Comptroller Squadron needs to develop an
evaluation process that adequately reviews the internal controls for the $45 million in KN
payroll disbursed annually. See Appendix D for our methodology for reviewing the
internal controls.

Actions to Date
23B




During our audit, the 51st Comptroller Squadron officials initiated actions to improve
their evaluation of internal controls for the pay process for KN employees. They
developed an outline of the pay process and drafted a checklist to evaluate the internal
controls within that process.

Recommendations, Client Comments, and Our
24B




Response
C. We recommend that the Commander, 51st Comptroller Squadron, U.S. Air
Forces Korea improve the internal control program as it relates to the pay process
for Korean National employees. At a minimum, the Commander should:

            1. Develop a written description of the controls in place over the Korean
               National pay section.

            2. Complete documented reviews of the internal control process to provide
               the basis for annual assessments of the pay process for Korean National
               employees.

Commander, 51st Comptroller Squadron Comments. The Commander, 7th Air Force,
responding for the Commander, 51st Comptroller Squadron, concurred with
Recommendations C.1. and C.2. The Commander, 7th Air Force stated that for
Recommendation C.1., an alternate management control checklist providing internal
controls specifically targeted to manage LCS funds was developed to document the
control process. For Recommendation C.2., the Commander, 7th Air Force stated that the
alternate management control checklist was developed in coordination with the USFK
staff and serves the dual purpose of (a) documenting their control processes, and (b)
validating recurring reviews to ensure effective implementation. The Commander,
7th Air Force stated that the checklist was completed May 21, 2008, and would be
executed on a quarterly basis.

      Our Response. The comments were fully responsive, and no additional comments are
      required.




                                              20
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through April 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

To accomplish the audit objective, we reviewed applicable laws, policies, agreements,
instructions, and other guidance. We interviewed Service Component, Defense Finance
and Accounting Service, and USFK officials responsible for the following areas as they
relate to HNS: policy, oversight, funding and accounting processes, labor, construction,
logistics, and Wartime HNS. Because of time constraints, we limited the scope of the
audit work by excluding Wartime HNS.

We focused on direct cost sharing support provided by the ROK; specifically, the support
outlined in the Special Measures Agreement. We evaluated the controls over the LCS
and Host Nation Funded Construction programs. We did not review the Logistics Cost
Sharing program because the Army Audit Agency reviewed the program, as reported
in A-2005-0093-FFP, “Logistics Cost Sharing Program,” January 12, 2005. See Prior
Coverage.

To evaluate the controls over the LCS program, we reviewed calendar year and FY 2007
budget and accounting documentation, assessed the cashflow process, verified the
certification and accreditation of the KN pay systems, reviewed the access controls over
the KN pay systems, and verified a statistical sample of KN employees against personnel
records. See Appendix D for a detailed discussion of the controls we observed.

To evaluate the controls over the Host Nation Funded Construction program, we verified
a judgmental sample of projects in the construction phase; interviewed resident
engineers; reviewed project documentation; and reviewed the process for receipt,
maintenance, and distribution of the program funds. See Appendix E for a detailed
discussion of the controls we observed.

Review of Internal Controls
We reviewed the adequacy of internal controls as they applied to our audit objective. We
did not identify any material internal control weaknesses; however, we identified areas
where USFK could strengthen its oversight, as detailed in findings B and C.
Implementing the recommendations in the report will improve the quality of oversight.

Use of Computer-Processed Data
We relied on computer-processed data generated by two computer systems. We pulled
data from the International Civilian Pay System, Version 1.0, and the 175th FMC



                                           21
Network KN Payroll System. These data were used during the verification of KN
employees within USFK.

      The DoD Office of Inspector General, Technical Assessment Directorate evaluated the
      appropriate documentation from each system to determine if the systems were in
      compliance with the DoD Information Technology Security Certification and
      Accreditation Process. The Technical Assessment Directorate determined that the KN
      Payroll System had a current authority to operate, but the International Civilian Pay
      System only had an interim authority to operate. However, the Directorate determined
      that the interim authority to operate was appropriately issued with a plan of action and
      milestones for completing the certification and accreditation process. Therefore, the
      Directorate concluded that the general controls were in place for each system and the data
      obtained were reliable. See Appendix D for the detailed methodology of our statistical
      sample and certification and accreditation verification.

Use of Technical Assistance
46B




The DoD Office of the Inspector General, Quantitative Methods Directorate developed a
statistical sample of KN employees. See Appendix D for the detailed methodology of
our statistical sample.

Prior Coverage
25B




During the last 5 years, the Army Audit Agency issued four reports discussing HNS of
U.S. Forces in Korea. Unrestricted Army Audit Agency audit reports can be accessed on
the Internet at https://www.aaa.army.mil.
                    HU                        UH




Army
41B




Army Audit Agency Report No. A-2007-0167-FFP, “Followup Audit of Logistics Cost
Sharing Program,” July 23, 2007

Army Audit Agency Report No. A-2007-0035-FFP, “Logistics Support Contract –
Maintenance of High Mobility Multipurpose Wheeled Vehicles and Heavy Expanded
Mobility Tactical Trucks,” January 10, 2007

Army Audit Agency Report No. A-2006-0133-FFP, “Corps of Engineers Contracting,”
June 7, 2006

Army Audit Agency Report No. A-2005-0093-FFP, “Logistics Cost Sharing Program,”
January 12, 2005




                                                   22
Appendix B. Quick-Reaction Report




                    23
24
USFK Judge Advocate General Opinion
26B




(Attachment 1 to Quick-Reaction Report)




                              25
26
Appendix C. U.S. Forces Korea Response to
Quick-Reaction Report




                    27
28
Appendix D. Controls Over the Labor Cost
Sharing Program
The controls over the LCS program were adequate and no material internal control
weaknesses were identified. To evaluate these controls, we verified a statistical sample
of KN employees against personnel records, reviewed calendar year and FY 2007 budget
and accounting documentation, assessed the cashflow process, verified the certification
and accreditation of the pay systems for KN labor, and reviewed the access controls over
the KN pay systems.

Labor Sample
27B




To develop a statistical sample of KN employees, we obtained personnel and payroll
databases as of October 2007. We excluded KN employees working for U.S. Naval
Forces Korea from the universe because their pay center is in Japan and including them
would not have been cost-effective or time-efficient. U.S. Naval Forces employed less
than 2 percent of the total KN workforce. The table below shows the universe of KN
employees and the respective sample sizes reviewed.

                                   KN Labor Sample
                       Pay Office                Population Sample Size
                   th
               175 FMC                                8,160         381
               51st Comptroller Squadron                866          97
                Total                                 9,026            478

To obtain the sample of 478 employees from the universe, we used a simple random
sample design without replacement to randomly select the appropriate sample from each
population. We used Excel random number generator to randomize the population. See
Appendix A for additional information.

To ensure that the employee database was reliable, we physically validated the
identification cards of the employees in the sample against employee identification
numbers on file at USFK. Also, we reviewed timesheets and supporting documentation
to ensure that there were adequate controls over the timekeeping process. We found one
employee whose identification number on the USFK-issued identification card did not
match the identification number listed in the personnel and payroll databases. In that
case, we determined that it was simply an error on the employee’s newly issued
identification card, and the employee was to get his identification card fixed. We did not
identify any significant issues in the timekeeping process.

Budget and Accounting Documentation Review
28B




We reviewed calendar year and FY 2007 LCS budget and accounting documentation
prepared and maintained by the 175th FMC and the 51st Comptroller Squadron.



                                            29
We discussed and observed the processes and reviewed bank statements, deposit slips,
disbursement vouchers, log entries, and other supporting documentation.

Cashflow Process Assessment
29B




The LCS cashflow process is discussed in detail in finding B of this report.

Certification and Accreditation Verification
30B




We interviewed USFK officials responsible for verifying the certification and
accreditation of the payroll systems for KN labor as a control over the LCS program.
Although we obtained a general understanding of the certification and accreditation
processes for the payroll systems, we did not test them. We obtained documentation, and
the analysis of that information is in Appendix A.

Access Control Review
31B




We interviewed 175th FMC officials to obtain an understanding of the access controls for
their payroll system. Officials from the 175th FMC explained that the payroll system for
KN labor operates on the Korea-Wide Area Network, which is not connected to the
Internet. Therefore, we determined that it was secure in controlling user access.
Additional controls implemented by the 175th FMC include the required use of a DoD
identification card, user names, and passwords.

We also interviewed officials at the 51st Comptroller Squadron to evaluate the access
controls over their payroll system for KN labor. Although Squadron officials had access
controls in place, they did not adequately document and evaluate those controls. The
evaluation of controls over the pay process is discussed in finding C of this report.




                                            30
Appendix E. Controls Over Host Nation
Funded Construction
The controls over Host Nation Funded Construction were adequate and provided
reasonable assurance that projects were completed according to contract specifications
and funds were properly managed and distributed.

Construction Sample
32B




We evaluated the controls by reviewing a sample of projects in the construction phase
during our audit. We judgmentally selected a sample of the current projects based on
cost. The sample totaled $207.4 million, representing 60 percent of the total value of
projects under construction, as shown in the following table.

            Republic of Korea Host Nation Funded Construction Sample
                                           Award Amount
               Project                       (millions)             Location
Parcel 1 Land Development                    $47.2             Humphreys
DRMO* Consolidation                           43.0             A’po
Middle School and Parking                     38.2             Osan Air Base
Community Fitness Center                      33.0             Humphreys
Electrical Upgrade                            16.5             Rodriguez Range
Vehicle Maintenance Facility                  15.0             USAG** Carroll
Upgrade Hardened Aircraft Shelters            10.1             Osan Air Base
Community Activities Center                    4.4             Osan Air Base
 Total                                      $207.4
*Defense Reutilization and Marketing Office        **U.S. Army Garrison

Review of Controls - Construction Process
3B




We interviewed resident engineers and reviewed project documentation, including
contract documents, final design floor plans, and quality assurance reports. We visited
each construction site and compared the final design floor plan to the construction we
observed.

We reviewed quality assurance reports at the U.S. Army Corps of Engineers, Far East
District (FED) that identified construction deficiencies. We found that FED inspectors
completed timely reviews of contractor work, identified discrepancies, and verified with
the contractor that discrepancies were corrected.

We reviewed the Army Audit Agency report, A-2006-0133-FFP, “Corps of Engineers
Contracting,” June 7, 2006, which also concluded that the FED adequately monitored
contractor performance to ensure that work was performed according to contract
specifications.


                                           31
Review of Controls - Funds
34B




We reviewed the process for the receipt, maintenance, and disbursement of Host Nation
Funded Construction funds. The FED used the Corps’ Financial Management System,
which is an integrated system that encompasses the entire financial process, including
funding, commitments, obligations, expenditures, and disbursements. We identified
several controls in the process to ensure funds were properly managed.

We found that key duties, such as procurement, authorization of payment, and disbursing,
were effectively segregated. For example, the funds are disbursed by the Corps’ Finance
Center in Millington, Tennessee, when authorized by the FED Resource Manager. The
Finance Center reconciles bank statements to the accounting records, and the FED also
reconciles the statements with its records for a second check for accuracy.

We reviewed the internal control checklists related to the following functions: operating
budget, revolving fund, and accounting operations. The checklists were comprehensive
and provided reasonable assurance that control weaknesses would be detected.

      We also reviewed a FED Internal Review office report titled “Review of Republic of
      Korea Funded Construction-Project Fund Management and Quarterly Report,”
      September 8, 2006. The report stated that the FED properly managed the ROK Host
      Nation Funded Construction funds.




                                                32
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                    Click to add JPEG file




                                   33
Click to add JPEG file




               34
U.S. Forces Korea Command Comments




                 Click to add JPEG file




                                35
                           Final Report
                            Reference




                         As a result of client
                         comments to the
                         finding an
                         additional
                         recommendation
                         was added. The
                         Recommendations
                         to draft finding B
                         were renumbered.
                         Draft
                         Recommendations
Click to add JPEG file   B.1, B.2, and B.3
                         have been
                         renumbered as
                         Recommendations
                         B.1.a, B.1.b, and
                         B.1.c. The
                         additional
                         recommendation is
                         B.2.a and B.2.b.




               36
                           Final Report
                            Reference




Click to add JPEG file
                         Renumbered as
                         Recommendation
                         B.1.a.




                         Renumbered as
                         Recommendation
                         B.1.b.




               37
                           Final Report
                            Reference




                         Renumbered as
                         Recommendation
                         B.1.c.




Click to add JPEG file




               38
7th Air Force, U.S. Air Forces Korea Command Comments




                  Click to add JPEG file




                                 39
Team Members
47B




The Department of Defense Office of the Deputy Inspector General for Auditing, Joint
and Overseas Operations prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Donald A. Bloomer
Melinda M. Oleksa
Gordon A. Uscier
Jennifer L. Paper
Jessica R. Frederick
Jessica R. Crotts
Eric W. Kruttschnitt
Lusk F. Penn
James D. Hartman
